MANAGING RISK IN THE FEDERAL-AID
      HIGHWAY PROGRAM
      Federal Highway Administration

       Report Number: MH-2005-012
      Date Issued: November 19, 2004
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Managing Risk in the Federal-Aid                   Date:    November 19, 2004
           Highway Program
           Report Number: MH-2005-012
  From:    Alexis M. Stefani                                       Reply to
                                                                   Attn. of:   JA-40
           Principal Assistant Inspector General
             for Auditing and Evaluation
    To:    Federal Highway Administrator

           This final report presents the results of our audit of the Federal Highway
           Administration’s (FHWA) process for assessing risks associated with Federal-aid
           highway programs implemented by state departments of transportation (states).
           FHWA uses risk assessments to identify the most vulnerable state programs
           requiring oversight attention and to concentrate division resources in areas with
           the most risk.

           Our objective was to determine whether FHWA implemented a risk assessment
           process that reliably assessed the risks associated with states’ implementation of
           the Federal-aid highway program. We evaluated Fiscal Years (FYs) 2002 and
           2003 risk assessments completed by eight Division offices―California, Delaware,
           Florida, Illinois, Mississippi, Nevada, Ohio, and Texas. The eight Division offices
           provide oversight of states that received about $8.5 billion of the $27.4 billion in
           FY 2003 Federal-aid apportionments. Exhibit A describes our scope and
           methodology.

           BACKGROUND
           During the past decade, there has been a significant increase in Federal and state
           funding for transportation improvements. Project management responsibilities
           traditionally performed by FHWA were also delegated to the states. While these
           factors have not altered FHWA’s responsibilities for ensuring the effective
           delivery of Federal-aid highway projects, it has required FHWA to refocus its
           attention from contract administration and detailed engineering activities to
           oversight of state processes for managing and overseeing projects.
                                                                                                    2


To refocus its oversight activities, in June 2001, FHWA issued a policy
recommending that its 52 Division offices conduct risk assessments of state
processes and management practices, and develop work plans that concentrate
oversight resources in areas that are most vulnerable to fraud, waste, and abuse.
This oversight approach is important because it allows FHWA to direct its limited
oversight resources where they will do the most good.

Although not required to conduct risk assessments, some Division offices have
done so. FHWA established a task force in July 2002 to evaluate Division office
methodologies for conducting risk assessments. The task force issued a report in
March 2003 that presented its analyses of risk assessment results obtained from 38
of 52 Division offices. The report recommended that risk assessments be
performed annually and used to prioritize and implement oversight activities. In
January 2003, we briefed the task force on our audit findings and suggested ways
the risk assessment process could be strengthened to make it more effective for
refocusing oversight resources.

RESULTS IN BRIEF
FHWA is taking steps to improve stewardship of Federal-aid funds. FHWA plans
to establish an oversight and review program1 that will require Division offices to
perform more stringent oversight, including reviewing state payment processes
and testing a sample of actual payments. However, as currently implemented,
risk assessments do not provide a systematic approach for assessing program risks
throughout the Agency. Because these assessments will guide Agency oversight
activities and the associated resources, it is important that FHWA ensure they are
mandated and effectively implemented.

Our audit identified areas where the risk assessment process could be strengthened
to enhance the reliability and consistency of assessment results and facilitate
analysis to identify program-wide risks. For example, we found risk assessments
varied significantly in the types of activities or programs selected for review, the
scope and methodology used in the assessments, and in the rating and
classification of risk assessment results. As a result, some major programs were
not reviewed, and risk assessment results were not comparable or reliable. For
example, the Mississippi Division office risk assessment did not evaluate the
safety program, although from FY 1994 to FY 2002 Mississippi had the highest
average rate of fatalities in the nation—2.7 fatalities per 100 million vehicle miles
traveled. Instead, the Mississippi Division office conducted process reviews of 3
of the 25 safety program components to determine if any improvements were

1
    This program is being established under its proposed Financial Accountability and Integrity Review
    policy.
                                                                                                       3


needed. These reviews addressed the safety impact of median crossings for a
specific highway project, methods to prevent fatalities caused by motorists
running off the road along the interstate, and work zone safety. However, the
Division office did not evaluate other key components of the safety program, such
as highway-rail grade crossings and emergency preparedness.

We also found that FHWA Headquarters did not mandate risk assessments or
provide specific guidance on how they should be conducted.                  Further,
Headquarters staff did not follow-up on risk assessment results to ensure that
Division offices had properly refocused oversight activities around identified risks
or analyzed nationwide program trends. As a result, the risk assessments varied
significantly in the number of programs reviewed, scope of assessments,
methodology used, and classification of risks. We found the risk assessment
process could be improved by:

      • Identifying major programs2 that should be evaluated by each Division
        office to ensure agency-wide attention to critical initiatives. During the
        implementation of the risk assessment initiative, each Division office
        determined which programs to evaluate. For example, the California
        Division office did not assess the state’s financial management practices
        although FHWA senior management has emphasized the need for more
        financial management oversight. California also (1) received $2.5 billion—
        the largest state apportionment—in FY 2003 Federal-aid highway funds,
        (2) projected a $25.7 billion budget deficit for FYs 2003 and 2004, and
        (3) had its largest metropolitan planning organization designated a “high-
        risk” recipient of Federal and state funds by a FY 2002 state audit that
        disclosed financial problems within the state.

          Further, some program components, such as the Disadvantaged Business
          Enterprise (DBE) component of the Civil Rights Program, are Agency-wide
          priorities and should be included in each Division office risk assessment.
          Of the eight Division Offices that we reviewed, California and Illinois did
          not evaluate DBE activity within their states. The remaining six Division
          offices evaluated DBE activity, but four of these offices did not assess state
          effectiveness in certifying firms as meeting DBE qualifications. For three
          of these states there are active investigations or prior convictions for DBE
          fraud. For example, a contractor in Ohio was convicted in May 2002 of
          fraudulently obtaining highway-paving contracts by representing herself as
          a DBE. To respond to concerns about DBE fraud raised by the Office of
          Inspector General (OIG), FHWA developed an action plan requiring each


2
    Major programs are important FHWA initiatives such as safety, financial management, and bridges.
                                                                                4


   Division office to assess state compliance with essential DBE program
   requirements. However, implementing the plan is essential.

• Ensuring program assessments are consistent in scope. Currently, each
  Division office independently determines which program components will
  be reviewed. For example, the Mississippi Division office risk assessment
  evaluated only 1 of 18 components of the bridge program—bridge design,
  which determined the risk of unnecessary structure costs and design errors
  resulting in claims. However, it did not evaluate other bridge components,
  such as the national bridge inspection standards or highway bridge
  replacement and rehabilitation practices―although 30 percent of the state’s
  bridges were either structurally deficient or functionally obsolete in FY
  2002. FHWA indicated the Mississippi Division office had previously
  acknowledged the bridge program was a potential risk and began to provide
  more selective oversight to address the potential risks through process
  reviews. However, the process reviews were limited in scope. In contrast,
  the Delaware Division office risk assessment evaluated 11 bridge
  components, although only 16 percent of Delaware’s bridges were
  structurally deficient or functionally obsolete. The Delaware risk
  assessment included the national bridge inspection standards, replacement
  and rehabilitation practices, and nine other critical bridge program
  components.

• Using standard risk assessment methods and approaches. Division
  offices varied in their use of objective data and data verification practices to
  evaluate risks. While there is no one method to assess and manage risk,
  generally accepted risk assessment practices recommend using common
  factors to evaluate risk, both qualitative and quantitative methods to support
  conclusions about risk, and common categories to classify risks. None of
  the eight Division offices reviewed followed all of these generally accepted
  risk assessment practices.

   For example, we found that in evaluating financial management risk, the
   Florida Division office did not include cost recovery issues in the risk
   assessment. However, since 1996, reports issued by the Florida Office of
   Program Policy Analysis and Government Accountability showed that
   Florida had experienced problems with cost and time overruns related to
   design errors and omissions in construction projects.

   Further, although not in our sample, the Wisconsin Division office
   considered bid rigging as a low risk because the Wisconsin Transportation
   Agency had licensed software to detect illegal bidding practices. However,
   in January 2004, four road construction executives and their construction
                                                                                    5


       companies were indicted on bid rigging and other charges involving road
       construction. The construction companies had received about $195 million
       in state road paving contracts since 1997. After the arrests, the Wisconsin
       Division office and Transportation Agency began an evaluation of current
       processes to identify necessary actions to strengthen controls and prevent
       collusion and bid rigging.

   •    Using consistent risk rating scales and classifications. Division offices
       we reviewed rated risks differently and used their own risk classification
       schemes. We found that three of eight Division offices used different
       numerical scales to rate risk and the remaining five Division offices
       classified risks as satisfactory, weak, or in need of additional oversight. For
       example, the Texas Division office rated work zone safety as satisfactory,
       although work zone fatalities in this state was the highest nationwide and
       accounted for 14.3 percent of the 2,059 nationwide fatalities in FYs 2000
       and 2001. In contrast, the Illinois, Ohio, and Delaware Division offices,
       with work zone fatalities accounting for 0.2 percent to 3.6 percent of
       nationwide fatalities during the same period, rated their work zone program
       risk as medium. In FYs 2000 and 2001, work zone fatalities nationwide
       increased to an all-time high of almost three deaths per day.

   • Following up to ensure risk assessment results are used to focus
     oversight. Division offices were not required to and did not report risk
     assessment results to FHWA Headquarters. As a result, FHWA did not
     determine how widespread weaknesses were or follow up with Division
     offices to determine whether identified risks were being mitigated. For
     example, if risk assessment results had been reported to FHWA
     Headquarters, FHWA would have found that materials sampling, testing,
     and quality assurance efforts required greater oversight attention in states
     evaluated by five of the eight Division offices that we reviewed. These five
     states lacked either approved quality assurance programs or experienced
     staff. FHWA Headquarters does not know whether the five Division
     offices are providing sufficient oversight attention to mitigate identified
     risks, as suggested by generally accepted risk assessment practices, and has
     not evaluated the effectiveness of Division office actions.

It is especially important that risk assessments be thorough and target major
FHWA programs, as they will be used to refocus oversight of agency activities
and strengthen oversight of financial management of the $30 billion FHWA
disburses to states annually. The risk assessments also will highlight the
workforce skill mix needed to mitigate risks and strengthen financial management.
We recognize that Division offices need some flexibility in conducting risk
assessments because of unique state issues. However, this does not preclude
                                                                                6


FHWA from identifying programs for review, ensuring that assessments use a
consistent approach so that it can accurately determine the severity of risks on a
programwide basis, and instituting a follow-up system to evaluate the
effectiveness of actions to mitigate program risks.

RECOMMENDATIONS
To improve FHWA’s process for managing risk in Federal-aid programs, we
recommend that the Federal Highway Administrator:

1. Require that all Division offices conduct risk assessments;

2. Issue guidance to Division offices that will ensure risk assessments are
   conducted more strategically by identifying major programs and program
   components to be evaluated, correlating the assessments with agency priorities,
   and providing Division offices with a disciplined methodology for evaluating
   and classifying program risks;

3. Conduct trend analyses of the individual risk assessments to identify program-
   wide issues and share these trends with all Division offices; and

4. Establish a systematic follow-up of Division office risk assessments to ensure
   oversight attention is given to high-risk areas.

MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE
A draft of this report was provided to FHWA on June 8, 2004, and FHWA
provided written comments on September 14, 2004. FHWA concurred with all
four of our recommendations, and agreed to take corrective action on two of the
recommendations by the end of 2005. These actions, when fully implemented,
should allow FHWA to develop risk assessment practices that will mature into an
agencywide risk management program.

It is our opinion that FHWA should implement the recommendations before the
end of 2005. FHWA has been experimenting with risk assessments the past
3 years and in FY 2003 completed its own study to evaluate risk assessment
methodologies of Division offices and identify best practices. These actions,
coupled with the OIG’s findings, provide a sufficient basis for immediately
implementing our recommendations. This accelerated schedule would also align
with FHWA’s plans to implement the Financial Accountability and Integrity
Review policy during FY 2005.
                                                                                   7


FHWA also provided additional information and clarified some of the information
presented in our draft report. Where appropriate, we incorporated the changes into
this final report. The complete text of management’s comments is in the
Appendix.

RESULTS

Improvements Are Needed in FHWA’s Process for
Managing Federal-Aid Program Risk
Our audit showed that risk assessments varied significantly in the types of
activities or programs selected for review, the scope and methodology used in the
assessments, and in the rating and classification of the risk assessment’s results.
FHWA Headquarters also did not mandate that risk assessments be conducted and
                                  did not provide specific guidance on how to
Table 1. Major Highw ay Programs

Bridges and Structures
                                  conduct the risk assessments. As a result, some
Civil Rights                      major programs were not evaluated and risk
Construction                      assessment results were not comparable or
Environment
Financial Management
                                  reliable.
Maintenance
Mobility and Traffic Operations Selecting Major Programs for Review. Each
Pavement and Materials
Planning and Air Quality        of the eight Division offices we visited
Project Development and Design  independently determined which of the major
Quality Issues
Research and Technology/ITS
                                programs shown in Table 1 would be included in
Right of Way                    its risk assessment. Six of the eight Division
Safety                          offices we reviewed evaluated at least 11 of 14
Source: FY 2003 Division office
          risk assessments.
                                major programs in FYs 2002 or 2003. However,
                                the remaining two Division offices—Mississippi
and California―assessed only nine and five programs, respectively. As a result,
some critical major programs were not evaluated. For example:

    • Not all Division offices evaluated safety, although work zone fatalities
      increased to an all-time high in FYs 2000 and 2001. Specifically, the
      Mississippi and California Division offices risk assessment did not assess
      any safety program issues, although from FY 1994 to FY 2002 Mississippi
      had the highest average rate of fatalities in the nation—2.7 fatalities per 100
      million vehicle miles traveled—and California accounted for 11.3 percent
      of all work zone fatalities nationwide in FYs 2000 and 2001. Instead, the
      Mississippi Division office conducted process reviews of 3 of the 25 safety
      program components to determine if any improvements were needed.
      These reviews addressed the safety impact of median crossings for a
      specific highway project, methods to prevent fatalities caused by motorists
      running off the road along the interstate, and work zone safety. However,
                                                                                                8


          the Division office did not evaluate other key components of the safety
          program such as highway-rail grade crossings and emergency preparedness.

      • The California Division office did not evaluate the state’s financial
        management practices. Both FHWA Headquarters and the Inspector
        General have identified sound financial management as being critical to
        major program delivery for all states. Despite the emphasis placed on
        FHWA oversight of state financial management practices, the California
        Division office did not evaluate this area even though the state (1) received
        $2.5 billion in FY 2003 Federal-aid highway apportionment funds―the
        most of any state; (2) projected a $25.7 billion budget deficit for FYs 2003
        and 2004; and (3) had a history of deficiencies in its financial management
        controls, as disclosed in previous Federal and state audits.

          For example, our September 2001 audit3 identified $132 million in highway
          fund obligations that no longer represented valid financial liabilities in
          California. In November 2001, a California state audit disclosed financial
          problems in the state, such as significant cash flow problems over a couple
          of years. Because of financial problems, the state’s largest metropolitan
          planning organization was designated a high-risk recipient of Federal and
          state funds. However, the California Division office did not target the
          state’s financial management practices in its risk assessment. Our March
          2004 audit4 showed problems still existed, as we identified $113 million in
          highway fund obligations that no longer represented valid financial
          liabilities in California.

          Further, some program components, such as the DBE component of the
          Civil Rights Program, are Agencywide priorities and should be included in
          each Division office risk assessment. Of the eight Division offices that we
          reviewed, California and Illinois did not evaluate DBE activity within their
          states. The remaining six Division offices evaluated DBE activity, but four
          of these offices did not assess state effectiveness in certifying firms as
          meeting DBE qualifications. For three of these states there are active
          investigations or prior convictions for DBE fraud. For example, a
          contractor in Ohio was convicted in May 2002 of fraudulently obtaining
          highway-paving contracts by representing herself as a DBE. To respond to
          concerns about DBE fraud raised by the OIG, FHWA developed an action
          plan requiring each Division office to assess state compliance with essential
          DBE program requirements. However, implementing the plan is essential.

3
    OIG Report Number FI-2001-097, Inactive Obligations, FHWA, September 24, 2001. OIG reports can
    be accessed on our website: www.oig.dot.gov
4
    OIG Report Number FI-2004-039, Inactive Obligations, FHWA, March 31, 2004.
                                                                                                                                         9



Determining the Scope of Program Assessments. We found that when the same
major programs were evaluated, the number of program components included in
Division office risk assessments varied significantly. Table 2 shows the variation
in the bridge program critical components included in risk assessments.

           Table 2. Bridge Program Components Evaluated by Division Offices




                                                                                                   Mississippi
                                                      California

                                                                   Delaware




                                                                                                                 Nevada
    Bridge Program Components Included In




                                                                              Florida

                                                                                        Illinois




                                                                                                                                 Texas
                                                                                                                          Ohio
    Risk Assessments

    Bridge Design and Construction                    x            x          x         x          x             x        x
    Bridge Management System                          x            x          x         x                        x        x
    National Bridge Inspection Standards              x            x          x                                  x        x      x
    Replacement and Rehabilitation                    x            x          x                                  x               x
    Hydraulics and Hydrology                                       x          x         x                        x        x
    Geotechnical Design                                                                 x                        x        x
    Construction Quality                                           x                                                             x
    Materials Quality                                              x                                                      x
    National Bridge Inventory                          x           x
    Approach Rideability                                                                x
    Contract Administration                                 x
    Joints                                                                              x
    Parapet Construction                                                                x
    PS&E Development                                        x
    Research-Innovative Bridges                                                                                                  x
    Security and Vulnerability                              x
    Underground Mine Mitigation                                                                                           x
    Value Engineering                                                                                                     x
              Total Components Evaluated                5  11                 5         7          1             6        8      4
    Source: FYs 2003 and 2002 Division office risk assessments.



In comparing risk assessments conducted by each of the eight Division offices, we
found Division offices evaluated different critical program components. For
example, the Mississippi Division office evaluated only 1 of 18 components of the
bridge program―bridge design, which determined the risk of unnecessary
structure costs and design errors resulting in claims. However, it did not evaluate
other bridge components—such as the national bridge inspection standards or
highway bridge replacement and rehabilitation practices―although 30 percent of
the state’s bridges were either structurally deficient or functionally obsolete in FY
2002. FHWA indicated the Mississippi Division office had previously
acknowledged the bridge program was a potential risk and began to provide more
selective oversight to address the potential risks through process reviews.
However, the process reviews were limited in scope and the results were not used
to rate overall risk in the bridge program.
                                                                                                              10


In contrast, the Delaware Division office evaluated 11 critical bridge components,
although only 16 percent of Delaware’s bridges were structurally deficient or
functionally obsolete in FY 2002, which is well below the national average of
28 percent. Table 3 compares the eight Division offices’ ratings of state bridge
programs with the number and percentage of structurally deficient and
functionally obsolete bridges reported for each state. They are ranked in order of
highest percentage of structurally deficient or obsolete bridges.


                  Table 3. Division Office Risk Assessments of Bridge Program
          Bridge Risk                           FY 2002             Number of                       Percent of
         Assessment                              State    Bridge      SDFO2                           SDFO
                                                       1
     Rating or Conclusion           State      Ranking    Count      Bridges                         Bridges
       Did not evaluate          Mississippi      22      16,809       4,986                          29.66
     More attention needed        California      24      23,754       6,764                          28.48
          Medium risk               Ohio          31      27,988       7,072                          25.27
          28 out of 75             Texas          40      48,202      10,506                          21.80
         Very slight risk          Florida        45      11,376       2,135                          18.77
       Did not evaluate            Illinois       47      25,610       4,648                          18.15
          Medium risk             Delaware        49         835        135                           16.17
     Evaluated – not rated         Nevada         50       1,562        223                           14.28
    Source: FYs 2003 and 2002 Division office risk assessments and FHWA data.
1
    In FY 2002, 27.57 percent of the nation’s bridges were structurally deficient or functionally obsolete.
2
    SDFO – Structurally deficient or functionally obsolete.


Developing a Risk Assessment Methodology. Division offices independently
developed their own risk assessment methodologies rather than following
generally accepted risk assessment practices,5 such as FHWA identifying
programs that Division offices should review. This occurred because FHWA
Headquarters did not develop a disciplined approach for implementing and
conducting risk assessments. As a result, FHWA Division offices varied in their
use of objective data and data verification practices to evaluate risks. There is no
one method to assess and manage risk, but generally accepted risk assessment
practices recommend using common factors to evaluate risk, both qualitative and
quantitative methods to support conclusions about risk, and common categories to
classify risks. None of the eight Division offices followed all of these generally
accepted risk assessment practices.

For example, we found that in evaluating financial management risk, the Florida
Division office did not include cost recovery issues in the risk assessment.
However, since 1996, reports issued by the Florida Office of Program Policy
Analysis and Government Accountability showed the state had experienced
problems with cost and time overruns related to design errors and omissions in
construction projects.

5
     GAO-01-1008, Internal Control Management and Evaluation Tool, August 2001.
                                                                                  11



Further, the Wisconsin Division office, although not in our sample, considered bid
rigging as a low risk because the Wisconsin Transportation Agency had licensed
software to detect illegal bidding practices. However, the state used only some of
the software applications to identify potential bid rigging. In January 2004, four
road construction executives and their construction companies were indicted on
bid rigging and other charges involving road construction. The construction
companies received about $195 million in state road paving contracts since 1997.
After the arrests, the Wisconsin Division office and Transportation Agency began
an evaluation of current processes to identify necessary actions to strengthen
controls and prevent collusion and bid rigging.

Rating and Classifying Program Risks. We found inconsistencies in the rating
and classification of risks because FHWA did not issue any guidance in this area.
Five of eight Division offices classified risks as satisfactory, weak, or in need of
additional oversight. The remaining three Division offices used different
numerical scales to rate risk as shown in Table 4. FHWA cannot readily
determine program-wide risks if each Division office defines risk differently and if
program        components
                                      Table 4. Scales Used to Rate Risk
with the same risk score
can be placed in different     Division    Point       Low     Medium        High
                                Office     Scale        Risk      Risk       Risk
risk classifications. As a    Delaware        5      1.0 - 2.4 2.5 - 3.9 4.0 - 5.0
result, FHWA could be            Ohio         5      0.0 - 2.5 2.5 - 3.5 3.5 - 5.0
using its resources to          Illinois      3      1.0 - 1.5 1.6 - 1.9 2.0 - 3.0
provide oversight of low- Source: FY 2003 Divis ion office ris k as ses s m ents .
risk programs rather than
providing oversight to areas requiring priority attention.

To illustrate disparities in the Division offices’ ratings, we analyzed rankings of
pavement management systems, construction work zone safety, and air quality and
found the following.

   • Pavement Management. The Delaware and Ohio Division offices both
     rated pavement management systems as 3.6. However, based on their
     individual point scales, the Delaware Division office categorized the risk as
     medium and the Ohio Division office categorized the risk as high.

   • Construction Work Zone Safety. In FYs 2000 and 2001, work zone
     fatalities increased to all-time highs, with the fatality rate approaching three
     deaths per day, causing the Department to identify work zone safety as a
     critical component of the overall safety program. However, as shown in
     Table 5, four of eight Division offices either did not evaluate work zone
     safety or did not provide a risk assessment rating.
                                                                              12




       Table 5. Risk Assessment Ratings – Work Zone Safety
                                 Risk            Work Zone      Percent of
            Division         Assessment           Fatalities*   Nationwide
             Office             Rating          2000 & 2001      Fatalities
             Texas           Satisfactory            295            14.3
           California      Did not evaluate           233           11.3
             Florida     Evaluated – no rating         87            4.2
             Illinois          Medium                  74            3.6
              Ohio             Medium                  59            2.9
            Nevada       Evaluated – no rating         18            0.9
          Mississippi      Did not evaluate             8            0.4
           Delaware            Medium                   4            0.2
        Source: FY 2003 and FY 2002 Division office risk assessments and
        FHWA data.
       *During FYs 2000 and 2001, there were 2,059 work zone fatalities
        nationwide.

   The remaining four did not consistently rate risk. For example, the Texas
   Division office rated work zone safety as satisfactory, although work zone
   fatalities in this state was the highest nationwide and accounted for
   14.3 percent of the 2,059 nationwide fatalities in FYs 2000 and 2001. In
   contrast, the Illinois, Ohio, and Delaware Division offices rated work zone
   safety risk as medium, although fatalities in these states were significantly
   lower, ranging from 0.2 percent to 3.6 percent of the nationwide fatalities in
   FYs 2000 and 2001.

• Air Quality. Our analysis of the Division offices’ risk classifications for air
  quality conformity showed a lack of consistency. For example, the Illinois
  Division office rated air quality conformity as a low risk although the state
  had two metropolitan areas with moderate or severe ozone-related air
  quality problems that affected 8.8 million people. In contrast, the Ohio
  Division office rated air quality conformity as a medium risk although the
  state had only one metropolitan area with moderate ozone-related air
  quality problems that affected 1.5 million people. Table 6 compares the
  Division offices’ ozone risk ratings for metropolitan areas with the
  Environmental Protection Agency’s (EPA) classifications for pollution
  severity for the same areas.
                                                                                                      13


                    Table 6. Comparison of Division Offices' Risk Ratings vs.
                   EPA's Classifications for Ozone Risks in Metropolitan Areas
              Division Office    Affected                          EPA Classifications
   State        Risk Rating     Population* Marginal Moderate Serious Severe Extreme
  California   Not evaluated       32.4              0            1          2           3        1
   Nevada        Not rated          0.4              1            0          0           0        0
 Mississippi Not evaluated          N/A              0            0          0           0        0
   Florida       Weakness           N/A              0            0          0           0        0
   Texas       32.5 out of 75      10.6              0            1          2           1        0
    Ohio          Medium            1.5              0            1          0           0        0
  Delaware        Medium            0.8              1            0          0           1        0
   Illinois         Low             8.8              0            1          0           1        0
  Source: FY 2003 and FY 2002 Division office risk assessments and EPA data.
  *Affected population is the number of individuals living in the metropolitan areas rated by EPA.

Following up to ensure risk assessment results are used to focus oversight.
Division offices were not required to and did not report risk assessment results to
FHWA Headquarters. As a result, FHWA did not identify Agencywide risks or
follow up with Division offices to determine whether identified risks were being
mitigated. For example, if risk assessment results had been reported to
headquarters, FHWA would have found that materials sampling, testing, and
quality assurance efforts required greater oversight attention in states reviewed by
five of the eight Division offices. These five states lacked approved quality
assurance programs or experienced staff. Further, FHWA Headquarters does not
know whether the five Division offices are providing oversight attention to
mitigate identified risks, as suggested by generally accepted risk assessment
practices, and has not evaluated the effectiveness of Division office actions.

Risk assessments have tremendous potential for focusing FHWA’s oversight
activities on the most vulnerable programs. These assessments must be thorough
and target major FHWA programs, as they will be used to refocus Agency
oversight activities, strengthen financial management oversight, and highlight the
workforce skill mix needed to reduce project and program risks and strengthen
financial management.

We recognize that Division offices need some flexibility in conducting risk
assessments because of unique state issues, differences in the size of similar
programs in each state, and effectiveness of state practices. However, this does
not preclude FHWA from identifying programs for review, ensuring that
assessments use a consistent approach so that FHWA can accurately determine the
severity of risks on a program-wide basis, and instituting a follow-up system to
evaluate the effectiveness of actions to mitigate risks.
                                                                                14


RECOMMENDATIONS
To improve FHWA’s process for managing risk in Federal-aid programs, we
recommend that the Federal Highway Administrator:

1. Require that all Division offices conduct risk assessments;

2. Issue guidance to Division offices that will ensure risk assessments are
   conducted more strategically by identifying major programs and program
   components to be evaluated, correlating the assessments with agency priorities,
   and providing Division offices with a disciplined methodology for evaluating
   and classifying program risks;

3. Conduct trend analyses of the individual risk assessments to identify program-
   wide issues, and share these trends with all Division offices; and

4. Establish a systematic follow-up of Division office risk assessments to ensure
   oversight attention is given to high-risk areas.

MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE
A draft of this report was provided to FHWA on June 8, 2004, and FHWA
provided written comments on September 14, 2004. FHWA’s comments are in
the appendix to this final report. FHWA concurred with all four of our
recommendations, and agreed to take corrective action on two of the
recommendations by the end of 2005. These actions, when fully implemented,
should allow FHWA to develop risk assessment practices that will mature into an
Agencywide risk management program.

It is our opinion, however, that FHWA should implement the recommendations
before the end of 2005. FHWA has been experimenting with risk assessments the
past 3 years and in FY 2003 completed its own study to evaluate risk assessment
methodologies of Division offices and identify best practices. These actions,
coupled with the OIG’s findings, provide a sufficient basis for immediately
implementing our recommendations. An accelerated schedule would also align
with FHWA’s plan to implement its Financial Accountability and Integrity
Review policy during FY 2005. At a minimum, FHWA should follow-up
immediately on the areas already identified as a high risk by the Division offices.

A discussion of FHWA’s response to each of the recommendations follows:

Recommendation 1. FHWA concurred with our recommendation to require that
all Division offices conduct risk assessments, stating the proposed Safe,
                                                                                  15


Accountable, Flexible, and Efficient Transportation Equity Act (SAFETEA)
requires that risk assessment procedures be used to establish FHWA’s oversight
program. FHWA is in the process of reviewing its policy and will incorporate the
adjustments identified by an on going pilot program which, will be completed in
2005. Further, FHWA will be ready to adjust its policy as required by any
language contained in the future SAFETEA legislation.

OIG Response. The proposed actions are responsive to our recommendation, but
the time frame for implementing the actions should be accelerated. In our opinion,
postponing the requirement by another year will unnecessarily delay FHWA’s
ability to assess program risks nationwide with no assurance that Agencywide
priorities are addressed.

Recommendation 2. FHWA concurred with our recommendation to issue
guidance to Division offices and is developing risk assessment practices that will
mature into an Agencywide risk management framework. FHWA is developing
and will complete by the end of 2005 a framework to serve as the Agency’s
guiding document. Further, FHWA will complete a pilot program to test the
framework by the summer of 2005. A key part of the framework will include
guidance to evaluate the strategic risks in critical program areas.

OIG Response. The proposed actions are responsive to our recommendation, but
the time frame for implementing the actions should be accelerated.

Recommendation 3. FHWA concurred with our recommendation to conduct
trend analyses to identify program-wide issues and to share these trends with all
Division offices. FHWA responded that the process being developed in the
framework will facilitate this trend analysis, and trends will be shared both with
the Division offices and throughout the Agency. This analysis will begin after
FHWA completes the framework and associated pilot program to test the
framework.

OIG Response. The proposed actions are responsive to our recommendation, but
FHWA did not include in its comments a specific time frame for implementing the
actions. FHWA did indicate that the trend analysis will begin after its framework
and pilot program are completed. As these activities will not be completed until
the end of 2005, in our opinion, the proposed actions should and can be
accelerated so that FHWA can identify program-wide issues.

Recommendation 4. FHWA concurred with our recommendation to establish a
systematic follow-up of Division office risk assessments to ensure oversight
attention is given to high-risk areas. The framework being developed will include
a process that will allow Division offices the flexibility to address high-risk areas
locally and the FHWA to address high-risk areas nationally.
                                                                             16


OIG Response. The proposed actions are responsive to our recommendation, but
FHWA did not include in its comments a specific time frame for implementing the
actions.

Other FHWA Comments

FHWA provided additional information and clarifications of some information
presented in our draft report. Based on FHWA’s additional comments, we deleted
the Ohio Division example from the report’s discussion of risk assessment
methods. Where appropriate in other parts of the report, we added clarifying
language.

ACTION REQUIRED

We request that FHWA provide written comments within 30 days addressing our
proposed acceleration of the target dates for completing actions in response to
recommendations 1. and 2. FHWA should also provide target completion dates
for planned actions in response to recommendations 3. and 4.

We appreciate the courtesies and cooperation of representatives of the Federal
Highway Administration. If you have any questions concerning this report, please
call me at (202) 366-1992 or Debra S. Ritt, Assistant Inspector General for
Surface and Maritime Programs, at (202) 493-0331.

                                       #
                                                                               17




EXHIBIT A. OBJECTIVES, SCOPE, AND
METHODOLOGY
In the June 2001 Policy on Stewardship and Oversight of the Federal Highway
Program, FHWA recommended that Division offices conduct risk assessments of
state Department of Transportation management practices. The objective of this
audit was to determine whether FHWA implemented a risk assessment process
that reliably assessed the risks associated with states’ implementation of the
Federal-aid highway program. Our audit covered FYs 2002 and 2003 risk
assessments completed by eight Division offices that were selected from FY 2002
state funding apportionments using probability proportional to size sampling.

To answer our audit objective, we:

   • Discussed risk assessment policy issues with FHWA Headquarters and
     Division office officials and evaluated risk assessments completed by
     California, Delaware, Florida, Illinois, Mississippi, Nevada, Ohio, and
     Texas Division offices.

   • Researched Government, engineering, and financial industry organizations,
     such as the Government Accountability Office, American Association of
     State Highway and Transportation Officials, and Institute of Internal
     Auditors to identify generally accepted risk assessment practices.

   • Met with program management officials at FHWA Headquarters in
     Washington, D.C., to discuss (1) stewardship and oversight policy issues
     related to risk assessments, and (2) guidance, criteria, procedures, and
     training provided by FHWA to Division offices for conducting risk
     assessments.

   • Verified methodologies used by Division offices for conducting risk
     assessments and determined whether the methodologies included generally
     accepted risk assessment practices.

   • Visited FHWA Division offices in Florida and Texas and conducted
     telephone interviews with management officials in the six other Division
     offices to discuss risk assessment issues and obtain relevant risk assessment
     documentation.




Exhibit A. Objective, Scope, and Methodology
                                                                               18


   • Analyzed Division office risk assessment documentation to identify major
     programs and critical program components assessed, and differences in
     methodologies used.

   • Identified examples of risks or known problems that Division offices had
     not identified, by researching FHWA and highway industry Web sites,
     major newspaper Web sites, Federal and state audit reports, OIG criminal
     investigation cases, and OIG testimony for Congress.

We conducted the audit from September 2002 through June 2004, in accordance
with Government Auditing Standards prescribed by the Comptroller General of
the United States. The audit included tests of internal controls, as we considered
necessary.




Exhibit A. Objective, Scope, and Methodology
                                                                       19




EXHIBIT B. MAJOR CONTRIBUTORS TO THIS
REPORT
THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.
Name                             Title
Debra S. Ritt                    Assistant Inspector General
                                   for Surface and Maritime Programs

Gary E. Lewis                    Program Director

Kerry R. Barras                  Project Manager

Tony V. Saraco                   Auditor

Alvin B. Schenkelberg            Auditor

Marvin E. Tuxhorn                Auditor

Farrin Tamaddon                  Program Analyst




Exhibit B. Major Contributors to This Report
                                                      20




APPENDIX. FEDERAL HIGHWAY ADMINISTRATION
COMMENTS




Appendix I. Federal Highway Administration Comments
                                                      21




Appendix I. Federal Highway Administration Comments
                                                      22




Appendix I. Federal Highway Administration Comments
                                                      23




Appendix I. Federal Highway Administration Comments
                                                      24




Appendix I. Federal Highway Administration Comments
